<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 115-578]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-578
 
                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 22, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                  U.S. GOVERNMENT PUBLISHING OFFICE
35-696 PDF                 WASHINGTON : 2019         



        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
              
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 22, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..   334
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland   335
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...   353
Duckworth, Hon. Tammy, U.S. Senator from the State of Illinois, 
  prepared statements............................................   360

                          ADDITIONAL MATERIALS

Legislation and related documents:
    S. 2602. Amendment in the nature of a substitute. The 
      ``Utilizing Significant Emissions with Innovative 
      Technologies Act,'' or the ``USE IT Act''..................     2
    S. 2800. Amendment in the nature of a substitute. The 
      ``America's Water Infrastructure Act of 2018''.............    34
        Report on S. 2800, the ``America's Water Infrastructure 
          Act of 2018''..........................................   286
    Presidential Nomination 1542. John L. Ryder, of Tennessee, to 
      be a Member of the Board of Directors of the Tennessee 
      Valley Authority for a term expiring May 18, 2021, vice 
      Michael McWherter, term expired............................   324
    S. 2734. To designate the Federal building and United States 
      courthouse located at 1300 Victoria Street in Laredo, 
      Texas, as the ``George P. Kazen Federal Building and United 
      States Courthouse''........................................   325
    S. 2377. To designate the Federal building and United States 
      courthouse located at 200 West 2nd Street in Dayton, Ohio, 
      as the ``Walter H. Rice Federal Building and United States 
      Courthouse''...............................................   327
    Committee Resolutions:
        Lease, U.S. Patent and Trademark Office, Arlington, VA. 
          PVA-04-WA17............................................   329
        Lease, Department of State, Washington, DC. PDC-06-WA17..   331
        Building acquisition, Robert T. Stafford U.S. Post Office 
          and Courthouse, Rutland, VT. PVT-BPS-RU16..............   333
    S. 2800 amendments agreed to en bloc:
        Duckworth #1, Credit Transfer Enhancement--This amendment 
          makes technical corrections to 33 U.S.C.  2225 to 
          facilitate the transfer of existing credits from a non-
          federal sponsor of a Section 211 project (Construction 
          of Flood Control Projects by Non-Federal Interests) to 
          another government entity, pending the approved by the 
          Secretary..............................................   339
        Markey #1, Regional Liaisons for Minority, Tribal, and 
          Low-Income Communities--This provision required the EPA 
          to appoint not fewer than 1 employee in each regional 
          office to service as a liaison to minority, tribal, and 
          low-income communities, and publically identify each 
          regional liaison on the agency's website...............   342
        Sullivan #1, amendment to conform the definitions of 
          Indian tribe with the Indian Self-Determination and 
          Education Assistance Act to allow all recognized tribal 
          entities to participate as a non-federal sponsor on 
          projects, as well as cost share waivers that are 
          currently available to tribes. Substitutes the current 
          definition with a universally accepted definition that 
          recognizes all tribes and tribal organizations that 
          work on behalf of tribes...............................   345
        Whitehouse #3, an amendment requiring the Corps to submit 
          a report to Congress identifying ongoing and recently 
          completed projects in coastal states, analyzing how 
          these projects correspond to State-approved coastal 
          plans, and making recommendations as to how these state 
          plans can be better incorporated into the Corps' work..   348
Documents in support of the Utilizing Significant Emissions with 
  Innovative Technologies Act, or the USE IT Act.................   394
  

                           BUSINESS MEETING

                              ----------                              


                         TUESDAY, MAY 22, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Rounds, Ernst, Sullivan, Shelby, 
Cardin, Whitehouse, Merkley, Gillibrand, Booker, and Markey.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this business 
meeting to order.
    Today we are going to consider bipartisan water 
infrastructure and carbon capture innovation legislation, as 
well as one nomination, two bills to name Federal buildings, 
and three General Services Administration resolutions.
    The first of these bills is S. 2602, the Utilizing 
Significant Emissions with Innovative Technologies, or the USE 
IT Act. This bill is called the USE IT Act because it 
encourages the commercial use of manmade carbon dioxide 
emissions. The bill supports innovative research and projects 
that capture carbon dioxide.
    My home State of Wyoming is already a leader in supporting 
carbon utilization research. Just last week the Integrated Test 
Center outside Gillette opened its doors to support innovative 
research on how to use carbon dioxide.
    In Congress, we need to support efforts like the Integrated 
Test Center so America can maintain its leadership in carbon 
capture and utilization and sequestration technologies. The USE 
IT Act does that.
    The legislation also facilitates permitting for capture 
projects and carbon dioxide pipelines. Innovation is how 
America will be a leader in reducing emissions.
    I introduced the USE IT Act with Committee members 
Whitehouse and Capito, as well as Senator Heitkamp. The bill is 
now also co-sponsored by Senator Duckworth. Together with 
Ranking Member Carper, we have introduced a manager's 
substitute amendment to make the bill stronger.
    I encourage Committee members to support this important 
legislation, so I look forward to working with my colleagues to 
pass the legislation and get it to the President's desk.
    [The text of S. 2602 follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Senator Barrasso. This morning we will also consider S. 
2800, America's Water Infrastructure Act of 2018. This is 
bipartisan legislation I introduced along with Committee 
Ranking Member Carper, Transportation Infrastructure 
Subcommittee Chairman Inhofe, and Subcommittee Ranking Member 
Cardin. The bill is also co-sponsored by Committee members 
Capito, Van Hollen, Wicker, Boozman, Whitehouse, and Sullivan.
    America's Water Infrastructure Act will grow the Nation's 
economy, will give State and local leaders increased input in 
water infrastructure projects, will cut bureaucratic red tape, 
and will make communities safer from dangerous floods and 
droughts. President Trump has called for a comprehensive 
infrastructure initiative. America's Water Infrastructure Act 
is a significant piece of that initiative.
    Last week during our Committee hearing, R.D. James, 
Assistant Secretary of the Army for Civil Works, said the bill 
will fulfill key principles outlined by President Trump. These 
principles include rebuilding America's water infrastructure by 
cutting red tape, by approving projects in a timely and 
effective manner, by giving more local control, by increasing 
the focus on rural America, and by leveraging Federal dollars. 
More specifically, the bill gives State and local leaders a 
significantly increased role in prioritizing projects.
    The legislation also reauthorizes the Water Infrastructure 
Flexibility Act, or WIFIA. This leverages billions of dollars 
in non-Federal investment for water infrastructure projects. 
The bill will grow America's economy and create jobs. It 
authorizes projects that will increase water storage, deepen 
nationally significant ports, address aging irrigation systems, 
and maintain the navigability of our inland waterways. It will 
also protect communities from dangerous floods.
    Today we will vote on a bipartisan manager's substitute 
amendment to further improve the bill. I have worked closely 
with Ranking Member Carper to draft this amendment. It will 
help get water infrastructure projects started faster. The 
amendment will push the Corps to take just 2 years to complete 
its feasibility studies for potential projects. That is in line 
with goal President Trump has set. The bill allows the Corps to 
review, and if necessary, initiate new categorical exclusions 
so projects aren't unnecessarily delayed due to environmental 
red tape.
    The amendment also includes language that helps smaller 
rural communities leverage WIFIA dollars so that they can 
complete needed infrastructure projects. The language is a 
modified version of Senator Boozman's SRF WIN bill, and I would 
like to thank him for all of his hard work on this important 
legislation.
    Thank you, Senator Boozman.
    The amendment also includes the Buy America language. After 
consulting with Senators Capito and Carper I have agreed to add 
this provision. As the bill proceeds through the legislative 
process, we are going to work to limit this provision's impact 
on small, disadvantaged, and rural communities.
    I want to thank Ranking Member Carper and Senator Inhofe 
and Senator Cardin, all the members of the Committee, and their 
staffs for their hard work on this bill. I urge all the members 
to support the important infrastructure legislation.
    [The text of S. 2800 and the related report follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    
    Senator Barrasso. Additionally, the Committee will be 
considering the nomination of John Ryder to be a member of the 
Board of Directors of the Tennessee Valley Authority. The 
Subcommittee on Clean Air and Nuclear Safety held a nomination 
hearing on Mr. Ryder in March.
    Finally, the Committee will consider S. 2734, a bill naming 
a Federal building and courthouse in Laredo, Texas; S. 2377, a 
bill naming a Federal building and courthouse in Dayton, Ohio; 
and three General Services Administration leases.
    [The text of Mr. Ryder's nomination, S. 2734, S. 2377, and 
General Services Administration resolutions follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Barrasso. I would like to now turn to Ranking 
Member Carper for his statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    There are a number of items on the agenda for our business 
meeting today, including several important bipartisan pieces of 
legislation.
    With respect to America's Water Infrastructure Act of 2018, 
once again, my thanks to you, Mr. Chairman. I also want to 
extend my thanks to our colleagues, Senator Inhofe, Senator 
Cardin, your staffs, my own staff for working with us on the 
important authorizing legislation for the Army Corps of 
Engineers.
    I am proud of the bipartisan work we have done together on 
this legislation. I hope it will serve as a model for work that 
we, along with other committees, can do in the future to 
address our Nation's infrastructure needs even more broadly.
    This bill is of great importance to our economy in 
Delaware, but I know that the First State's reliance on the 
Corps' work is not unique. Over 99 percent of the U.S. overseas 
trade volume moves through coastal channels that the Army Corps 
maintains. Think about that, over 99 percent maintained by the 
Army Corps of Engineers.
    The Corps' inland waterways and locks form a freight 
network that provides access to international markets through 
our ports. They also serve as a critical infrastructure for the 
U.S. military.
    Our bill authorizes investments in this system in multiple 
ways. Most notably, at the request of Secretary James and of 
many Senators both on and off our Committee, the bill better 
positions the Corps to be an active partner with ports, with 
communities, with States, Tribes, and other stakeholders in 
growing and expanding our Nation's economy.
    I would also like to take a minute or two here to say a few 
words about the substitute amendment for S. 2602, the Utilizing 
Significant Emissions with Innovative Technologies Act, or the 
USE IT Act. I have added my name as a co-sponsor of the 
substitute of which our Chairman is the sponsor, and which 
Senator Whitehouse has done a huge amount of work. I applaud 
you both. As I said during the legislative hearing for S. 2602, 
I appreciate the Chairman's focus on solutions to climate 
change when it comes to carbon capture, utilization, and 
sequestration, also known as CCUS.
    I have long believed that the wide deployment of CCUS 
technologies could reduce climate pollution emissions in our 
country and abroad, while providing a real win-win for coal 
communities, for manufacturing, and for our climate. That is 
why, for over a decade, I have supported, and in some cases, 
led efforts that spur the development of CCUS without weakening 
environmental and public health protection.
    At the legislative hearing for this bill, I applauded the 
underlying efforts of the legislation, but voiced a couple of 
concerns. I was mainly concerned that the legislation could 
open the door for weaker environmental protections and 
unnecessary streamlining measures. Since the hearing, staff 
from the offices of the Chairman, Senator Whitehouse, and other 
co-sponsors have worked closely with my own staff to try to 
address those concerns, and I especially want to thank the 
Chairman's staff for their hard work on this issue.
    The substitute that is before us today is a reflection of 
that hard work, and I believe it represents a good compromise. 
Some of the key changes we are making today include requiring 
EPA to consult with the Department of Energy on CCUS research 
to avoid duplication and enhance coordination between our two 
agencies; requiring a robust report from the Council on 
Environmental Quality that will provide critical information 
about the CCUS Federal permitting process for anyone thinking 
of starting a CCUS project, as well as information about 
possible regulatory gaps needed for CCUS; and finally, adding 
additional environmental safeguards and public notice and 
comment period for any guidance produced by CEQ regarding the 
permitting process.
    I suspect that the Chairman will probably agree that this 
substitute is not a bill either of us would have written on our 
own; however, if we are going to truly address big issues like 
climate change, we are going to have to find compromises that 
can work for both parties. With these changes in the substitute 
and with assurance from the Chairman that this legislation will 
not be used as a vehicle to attack the Clean Air Act, I will be 
voting yes.
    I realize that we have some additional important work to do 
in order to move these two bills across the finish line, but 
today is a very important first step, and if we continue to 
work in a bipartisan fashion, I believe we will enact these 
bills into law this year, and our country will be better for 
it. So, let's get on with it, and as we do, let me express once 
again my heartfelt thanks to the members of our staff who have 
worked hard and constructively to bring us this far today.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Cardin, anything you would like to add?

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you, Mr. Chairman. I will be very 
brief because I think we now have a quorum.
    Senator Barrasso. We do.
    Senator Cardin. Would the Chairman prefer to vote, then I 
will make my statement?
    Senator Barrasso. Please.
    Senator Cardin. I will be very quick, then.
    First, thank you for continuing the tradition of our 
Committee. This is a nonpartisan bill, has the strong support 
of both Democrats and Republicans in the best tradition of our 
Committee, moves forward on water projects that are important 
to all parts of our country. I particularly want to thank you 
for the work that we have done in the Chesapeake Bay Watershed. 
Both Poplar Island and Mid-Bay, which are critically important 
locations for dredge material, are advanced by this bill. The 
Anacostia River is advanced in its review.
    As we commented earlier, thank you for your leadership on 
dealing with the small dockside businesses that cater to 
recreation and tourism economies. The economic impact gives 
them a better chance to get their projects moving forward.
    I am also pleased this is the third WRDA bill in a row that 
you include updates to our Nation's drinking water, wastewater, 
and stormwater infrastructure. I particularly want to 
acknowledge several bills, much of which are incorporated in 
here, that were worked on by members of this Committee: S. 
1137, the Clean, Safe, Reliable Water Infrastructure bill. 
Senators Boozman, Inhofe, Duckworth, and others worked with me 
on this bill to improve increased water efficiency.
    The Clean, Safe, Reliable Water Infrastructure Act includes 
$225 million to protect the sources of our drinking water and 
funding to repair and eliminate sewer overflows.
    Now, that hit home in Maryland just this past week with 
what happened in Frederick, Maryland, that saw historic rain 
last week. The rain soaked the region beginning Tuesday night, 
caused the wastewater treatment plant to take on more water 
than it could handle. Millions of gallons of untreated water 
were diverted into Carroll Creek to prevent equipment failure. 
So, this bill will help alleviate those types of issues in the 
future.
    For those of you who watched the Preakness on Saturday, I 
think you saw how drenched we have been as a result of the 
water. This bill will help.
    Second, S. 692, the Water Infrastructure Flexibility Act. I 
worked on that with Senators Fischer and Brown dealing with 
affordability and integrated planning. Important provisions are 
included in this bill. The bill also creates a multi-agency 
Federal task force to study the problems of funding and 
financing stormwater. The bill also addresses information 
concerning onsite wastewater recycling.
    Finally, the bill incorporates much of S. 451, the Water 
Resources Research Amendments, that I worked with Senator 
Boozman to research increased effectiveness and efficiency of 
new water treatment facilities.
    This is a great bill. I am proud to be associated with it, 
and I strongly support it.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. Since we do have a 
quorum here, I want to go ahead and get with that, but I will 
just ask that the statements that I made comparable to the 
statement of my friend be made a part of the record, so we can 
go ahead and vote.
    Senator Barrasso. Thank you very much, Senator Inhofe.
    We will move ahead now. Since we have enough members who 
have arrived, we want to move to the votes on the items on 
today's agenda. The Ranking Member and I have agreed to vote on 
the USE IT Act by voice. The Ranking Member and I have also 
agreed to vote on the two Federal buildings and courthouse 
naming bills, the TVA nomination, the three GSA resolutions en 
bloc by voice.
    Members may choose to have their votes recorded for a 
specific item in that bloc after the voice vote. The record 
will reflect any member requesting to be recorded on any item 
on today's agenda as long as he or she does so by the close of 
business today and it doesn't change the outcome.
    I appreciate the comments of all of the members. I would 
like to call up now the substitute amendment to S. 2602, the 
Utilizing Significant Emissions with Innovative Technologies 
Act. This was circulated last Friday. The Ranking Member and I 
have agreed that this substitute shall be considered the 
original text for purpose of amendments. Members have not filed 
additional amendments to the substitute.
    I move to approve the substitute amendment to S. 26----
    Senator Carper. Before we do that, Mr. Chairman, could I 
just ask unanimous consent to add Senator Heitkamp as a co-
sponsor of the manager's amendment to S. 2602 in the nature of 
a substitute?
    Senator Barrasso. Without objection.
    I now move to approve the substitute amendment to S. 2602 
and report S. 2602, as amended, favorably to the Senate.
    Is there a second?
    Senator Whitehouse. Second.
    Senator Barrasso. All those in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, no.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. We have approved S. 2602, as amended, which will be 
reported favorably to the Senate.
    Next is en bloc passage of six items. I would like to call 
up S. 2734, a bill naming a Federal building and the courthouse 
of Laredo, Texas; S. 2377, a bill naming a Federal building and 
courthouse in Dayton, Ohio; Presidential Nomination 1542, John 
Ryder of Tennessee to be a member of the Board of Directors of 
the Tennessee Valley Authority; and three General Services 
Administration resolutions en bloc.
    I move to approve and report S. 2734, S. 2377, and 
Presidential Nomination 1542 favorably to the Senate, and 
approve three GSA resolutions en bloc.
    Is there a second?
    Senator Carper. Second.
    Senator Barrasso. All those in favor please say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, no.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. We have approved S. 2734, S. 2377, and Presidential 
Nomination 1542, which will be reported favorably to the 
Senate. We have also approved three GSA resolutions.
    Next is America's Water Infrastructure Act. Now I would 
like to call up the substitute amendment to S. 2800, America's 
Water Infrastructure Act that was circulated last Friday. The 
Ranking Member and I have agreed that this substitute shall be 
considered the original text for purposes of amendments.
    Members have filed amendments to the substitute. The 
Ranking Member and I have agreed to vote on four amendments en 
bloc by voice vote. Members may choose to have their votes 
recorded for a specific item in that bloc after the voice vote.
    So, we have en bloc approval of four amendments. I would 
like to call up Duckworth No. 1, Sullivan No. 1, Markey No. 1, 
and Whitehouse No. 3 en bloc.
    Anyone like to be heard on any of the amendments in this 
bloc?
    Senator Carper. I would like to make a very, very brief 
statement, if I could, Mr. Chairman.
    This package of amendments represents more areas of 
consensus that were able to come together in bipartisan fashion 
in support. I recognize that a number of amendments were filed 
today and that we will continue to work with Committee members 
to address their priorities as this process moves forward.
    I would just like to echo your point. We will continue to 
work with Senators Booker and Capito on their wastewater grant 
proposal, and Senators Markey and Gillibrand on their Section 
111 matter. Both of these are key issues that need to be 
addressed, and they have our commitment to continue to work 
through these amendments as we get to the floor so that these 
proposals can be included, and I would encourage everyone to 
support the package nonetheless.
    Senator Barrasso. Thank you, Senator Carper.
    At this time, I would like to approve Duckworth No. 1, 
Sullivan No. 1, Markey No. 1, and Whitehouse No. 3 en bloc.
    Is there a second?
    Senator Carper. Second.
    Senator Barrasso. All those in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, no.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it, and Duckworth No. 1, Sullivan No. 1, Markey No. 1, and 
Whitehouse No. 3 are all agreed to.
    [The referenced amendments follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Barrasso. Several members have requested to enter 
into colloquies on matters relating to this bill. We will enter 
into those colloquies after we have concluded the voting.
    Does any Senator seek recognition to offer an amendment 
that is not related to those colloquies?
    [No audible response.]
    Senator Barrasso. I see no further members seeking 
recognition to offer an amendment, so I move to approve the 
substitute amendment to S. 2800, as amended, and report S. 
2800, as amended, favorably to the Senate. We will hold a roll 
call vote.
    Is there a second?
    Senator Carper. I second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Booker. Aye.
    The Clerk. Mr. Boozman.
    Senator Boozman. Aye.
    The Clerk. Mrs. Capito.
    Senator Capito. Aye.
    The Clerk. Mr. Cardin.
    Senator Cardin. Aye.
    The Clerk. Mr. Carper.
    Senator Carper. Aye.
    The Clerk. Ms. Duckworth.
    Senator Carper. Aye by proxy.
    The Clerk. Mrs. Ernst.
    Senator Ernst. Aye.
    The Clerk. Mrs. Fischer.
    Senator Fischer. Aye.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. Aye.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. Aye.
    The Clerk. Mr. Merkley.
    Senator Merkley. Aye.
    The Clerk. Mr. Moran.
    Senator Barrasso. Aye by proxy.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. Aye by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Van Hollen.
    Senator Carper. Aye by proxy.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    The Clerk. Mr. Chairman, the yeas are 21.
    Senator Barrasso. The yeas are 21, the nays are zero. We 
have approved S. 2800, as amended, which will be reported 
favorably to the Senate.
    I want to thank each and every one of you.
    The voting part of the meeting is finished. I am now happy 
to recognize members who would like to enter into colloquies, 
and I know, Senator Inhofe, you were kind enough to hold back 
on your opening comments because we did have a quorum, and we 
wanted to make sure that people could vote as they were here, 
so I want to thank all of you for agreeing to defer the 
colloquies until after the conclusion of the voting.
    Senator Carper, perhaps before we jump to the colloquies, 
Senator Inhofe, he could make his opening statement.
    Senator Carper. That would be fine.
    Senator Barrasso. Thank you.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman and the Ranking 
Member, Senator Cardin, all of the staffs that got this bill to 
this point.
    In 2014 we had a WRDA bill for the first time in 7 years. 
Initially, we were supposed to have WRDA bills every other 
year, so we made the commitment at that time that we were going 
to start having them, so we had it in 2014, 2016, now 2018 we 
are keeping our word. I appreciate the Chair and the Ranking 
Member's commitment to continue the cycle. With the House 
releasing their bill last week and marking up this week, too, 
we are on track.
    So, if you hear that Congress isn't working on an 
infrastructure bill, remind them that our water resources and 
our water treatment system are considered infrastructure, very 
important infrastructure.
    Our ports are responsible for 99 percent of our overseas 
trade, making up a fourth of our economy. Fourteen percent of 
our domestic freight travels on inland waterways. I might add 
that one of those inland waterways, which is the most inland 
warm water port in America, happens to be in my State of 
Oklahoma.
    The America's Water Infrastructure Act provides project 
funding authorizations for many critical projects. The programs 
are also reforming the Corps' budget, cutting red tape, 
providing more transparency, and increasing local input when it 
comes to Corps priorities, so I look forward to continuing to 
work with my colleagues as we ensure all of our infrastructure, 
the backbone of the economy, is prioritized.
    Senator Barrasso. Well, thank you so much, Senator Inhofe. 
We appreciate your comments and your leadership as the former 
Chairman of the Committee and now as the Chairman of the 
Subcommittee dealing with this topic.
    Senator Inhofe. Thank you.
    Senator Barrasso. Thank you so much.
    Senator Carper.
    Senator Carper. Mr. Chairman, I want to raise an issue 
regarding Section 1041, a provision related to the benefit to 
cost ratio, known as BCR. I think the current drafting may have 
some unintended consequences. I want to work with you and your 
staff, we want to work with you and your staff to modify the 
language in this section to make a technical correction that 
better reflects our intent. Specifically, the provision, as 
currently drafted, may limit the ability to seek court review 
of errors in a benefit to cost ratio, and if there are errors 
in the benefit to cost ratio, then parties should have a 
process for those errors to be remedied.
    Senator Barrasso. Well, I want to thank you, Senator 
Carper, for raising this issue, which is a concern for all of 
us. We agree that there should be one BCR on a single project. 
We both share the concerns, though, that any BCR changes during 
project construction could cause delays and waste taxpayer 
dollars. I am going to be happy to work with you to remedy the 
language as we move to the floor.
    Senator Rounds, you are recognized.
    Senator Rounds. Thank you, Mr. Chairman. I had originally 
intended to offer an amendment today that would address a 
significant issue facing my State and others. The Army Corps of 
Engineers, under a process begun by the previous 
Administration, is attempting to finalize surplus water rules 
that could deprive the States of their legal water rights. In 
addition, the Corps has created unnecessary red tape and 
requirements for the people of my State to be granted easements 
for routine infrastructure upgrades.
    But in lieu of offering an amendment, Mr. Chairman, I would 
simply ask that you, if you would, please, commit that you and 
your staff would continue to work with me on statutory language 
to address these issues.
    Senator Barrasso. Absolutely, Senator Rounds. I look 
forward to working with you regarding this important issue as 
we consider a manager's amendment to the floor, so thank you, 
Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman. I want to thank 
you and the Ranking Member for your leadership and commitment 
to passing another strong water resources bill in this 
Congress. As the bill moves to the floor, I welcome the 
opportunity to work with this Committee to address another 
pressing water resource challenge plaguing Massachusetts.
    The Town of Sandwich, on Cape Cod, has suffered from 
coastal erosion over several years, which may be a result of 
the Federal Cape Cod Canal interrupting the natural flow of 
sediment, that is, the sand which flows into the channel rather 
than onto the beach. The town is currently seeking assistance 
from the Corps to nourish, that is, to put sand on the beach 
using a special program that was established to mitigate the 
damage caused by other Federal projects, for example, channels 
and sea walls.
    Under this program, the Corps typically pays for the entire 
cost of the restoration, and the reason why is simple: if 
Federal infrastructure is causing harm to our communities, it 
is the Federal Government's obligation to make those 
communities whole. Yet the Corps may require communities to pay 
half of the cost of maintaining those beaches after they are 
restored, that is, placing that additional sand on them once 
the sand has eroded.
    That is not the spirit of the law. That is why I filed an 
amendment requiring the Corps to pay for the full cost of 
future nourishments. I thank Senator Gillibrand for co-
sponsoring my amendment, and I would like to work with you, Mr. 
Chairman, and the Ranking Member on this pressing issue before 
we reach the floor.
    Senator Barrasso. Well, thank you, Senator Markey. I do 
appreciate your interest in addressing the issues of the 
beneficial use of sediment. As you know, Secretary James raised 
this very issue in our hearing on America's Water 
Infrastructure Act just last week, so I believe we need to find 
a national fix for this issue, and I look forward to working 
with you to address this important issue as we move to develop 
a manager's amendment for the floor, so thank you very much, 
Senator.
    Senator Markey. Thank you.
    Senator Barrasso. Senator Booker, you are recognized.
    Senator Booker. Mr. Chairman, I am really grateful to be 
recognized, but I am also grateful for you and Senator Carper 
for putting together this really impressive bipartisan bill. To 
hear it passed with unanimity is testimony to both of your 
leadership. I am grateful, and I am thankful, really, to all 
the staffs. My team has been working with folks on both sides 
of the aisle. I think this is really, unfortunately, a part of 
my Washington experience that is very little talked about 
outside of Washington, the kind of work that went into this.
    I am really pleased to work with Senator Capito; it has 
been a great experience working with her staff throughout this 
experience, especially on the Water Workforce Development Act 
I, which was included in this legislation, something I am very 
proud of, really needed in my State, and I know, others. There 
is a growing shortage of water workers in the utility sectors. 
This shortage threatens the safety and efficiency and the 
management of our drinking water systems and our wastewater 
systems. The new program is just an important first step to 
address this issue.
    I want to also thank, in his absence, Senator Boozman for 
his leadership on the SRF WIN Act. I am proud to support this 
innovative provision that will help States fund bundles of 
water infrastructure projects that are construction ready, but 
often lack the funding to move forward.
    I filed three amendments, as you all know, that I did not 
call up today for a vote, and I was grateful, frankly, for both 
of my Chairmen and Ranking Members for agreeing to work with me 
and Senator Capito as these move to the floor. In particular, I 
am glad to have recently introduced, along with Senator Capito 
and Senator Jones, the Residential Decentralization Wastewater 
Improvement Act. Senator Carper talked to me before this 
hearing directly, as his staff has already affirmed the 
willingness and the interest to work with us on this.
    I filed this amendment and withdrew it because of the 
commitment I got from leadership to work with me on this, and I 
just want to really make clear my motivations here. I have now 
traveled now only throughout my State, but throughout the 
country, and been anguished to see what is happening to low 
income and moderate households who have such difficulty 
connecting to existing wastewater infrastructure or installing 
upgrades to septic systems. This is a national problem causing 
things that should not go on in the wealthiest Nation on the 
planet Earth.
    I have seen firsthand in rural parts of our country how low 
income homes, often in minority areas, that there are upwards 
of half the populations that are not connected to municipal 
water systems. I will never forget touring Alabama, Lowndes 
County, the very famous civil rights county where the marchers 
from Selma to Montgomery walked through. I was stunned to see 
that there are so much challenges there with just septic 
problems.
    I found out about this because, on my Senate Foreign 
Relations Committee, I am the Ranking on the Africa 
Subcommittee, met with Dr. Peter Hotez, who is the probably top 
American doctor on neglected tropical diseases, and we wanted 
to do something about hookworm problems in Africa, and he hands 
me his book at the beginning of the meeting, and I am flipping 
through the pages, and I was shocked to see that the United 
States had these problems. An estimated 12 million Americans 
who are suffering from tropical diseases like hookworm, and 
most doctors in this country don't think exists on this 
continent. And that drew me down to the Black Belt in the 
South, where I started seeing the communities that are being 
affected by this.
    It is shameful. It is just shameful that we are not 
addressing these problems. So, I just want to say I am deeply 
grateful for this bipartisan effort. I really am thankful to 
Senator Capito for her leadership and partnership in driving 
these issues.
    There is a moral imperative to deal with these issues. The 
suffering that is going on in places from my State to others 
because of the lack of these simple basic connections to 
wastewater systems and municipal water systems is just 
something that we can address. We have the power to do this; 
this is not one of those issues that it is a matter of can we, 
it is do we have the collective will, and I am grateful to see 
that will evidenced by my Ranking and my Chairman, as well as 
other colleagues on this Committee, and I am grateful to you 
for giving me this time to make some remarks.
    Senator Barrasso. Senator Carper.
    Senator Carper. Senator Booker and I were able to talk for 
a couple minutes about this earlier. Our southernmost county is 
Sussex County. We don't have many counties, but it is the third 
largest county in America, and most of it is pretty rural. 
Raised a lot of soybeans and chickens and all there, but we 
have several dozen communities that were developed with housing 
maybe 30, 40 years, and at the time the developer installed 
wastewater treatment, and there was a drinking water system 
that was supposed to be maintained through fees collected from 
the residents in those communities. Over time people moved, 
folks stopped collecting the fees, and we have situations where 
the quality of the drinking water is not what it ought to be 
and where the ability to safely dispose of wastewater is not 
what it should be.
    We have an interesting pilot, a couple of interesting 
pilots going on in a couple of those communities that use I 
think a little bit of Federal money, along with involvement of 
a utility and one or two non-profits to see if we can't come up 
with a cost effective way to meet the moral imperative that you 
are talking about. So, I am interested in exploring this 
further and working with you and Senator Capito, and I suspect 
the Chairman feels the same way. Hopefully, we can have 
something ready to go by the time this bill comes to the floor.
    Thank you.
    Senator Barrasso. Well, I want to thank you, Senator 
Booker, and I want to thank you, Senator Capito, for raising 
the issue. The language would greatly expand the Clean Water 
Act. It is my understanding that this issue possibly could be 
better suited in the Farm Bill, and you are trying to include 
similar language in that bill, but I want to work with you on 
this issue as we move forward with the legislative process.
    I just wanted to give Senator Capito, since you raised her 
involvement, an opportunity to speak to this or other matters 
related to the bill.
    Senator Capito. Thank you, Mr. Chairman. I thank the 
Ranking Member. I am delighted that we have come to this point 
where we are unanimous for the WRDA bill. I am glad that we are 
updating it in the timeframes that we need to.
    I want to thank Senator Booker, as well, for working with 
us and including in this bill the Water Workforce Improvement 
Act. A lot of our workers who are tending to our water systems 
are aging out, and it is not a career that a lot of people are 
really aspiring to. Although it is a very highly technical 
career, as well, and we need to make sure that we are 
addressing the challenges of an aging work force there, so, 
thank you, Senator Booker, for that.
    Also, I look forward to working with you both on the septic 
tank issue. Obviously, in rural areas it is of great concern. I 
am going to be honest with you, Senator Booker, I did not 
realize the statistics were as high as they are in terms of 
diseases that are transmitted because of faulty or infected 
systems, so that, in and of itself, is rather startling.
    There is also another portion of this bill that you all 
included for me, and I appreciate that, and these are 
intractable water systems. These are systems that don't belong 
to a municipality. Many of them in my State are in the southern 
part of the State where they were old coal camps that have now 
been abandoned. There is no data, there is no help for these 
entities to be able to manage these systems, so any help that 
we can get. A lot of them are under boil water advisories, 
which, in and of itself, you think are we still living in a 
time where we are boiling water? But yes, we are, and some 
people are bringing their water in, so working with that is 
good.
    You also included the Buy America requirements that are for 
funding of the Safe Drinking Water State Revolving Fund, so I 
appreciate that as well.
    I would like to talk about the USE IT Act. Nobody has 
talked about that; it is sort of overshadowed. But I see 
Senator Whitehouse there, and he has been a great co-
conspirator here with us, working together with the leadership 
of this Committee, because we started with the 45Q tax credit 
issue for CCUS. We come at it from different angles here. 
Obviously, I am from a coal State who wants to see the use of 
coal still have as long a life as possible. I don't want to 
speak for Senator Whitehouse, but he has come to it for a 
carbon capture interest.
    So, this initiative was kind of difficult because it will 
help incorporate different viewpoints of Federal agencies, 
States, industry, academic, NGOs, to figure out the permitting 
process for innovative projects; like how are we going to carry 
the carbon. We don't really have the permitting process in 
place. This will give us a playbook for those projects. A lot 
of this that is occurring now in some of the innovation is sort 
of stumbling in the dark, so I think a good framework, which 
the USE IT Act will bring.
    I would also like to take a moment to thank my staff, 
because I know our staffs have worked very hard on this. We 
have a great co-sponsorship of Barrasso, Heitkamp, and Senator 
Whitehouse, as I mentioned, and I want to thank the Ranking 
Member and Senator Duckworth for signing on to the manager's 
amendment.
    But I would like, in particular, to thank Travis Cohen, who 
is my staff person who has done a wonderful job, but in 
particular Elizabeth Horner, who is Senior Counsel for EPW 
Majority on the Council for the Clean Air and Nuclear Safety 
Subcommittee, which I chair. So, thank you to both of them, and 
I look forward to us working together to refine this and to 
hopefully get it through the entire Senate.
    Thank you very much.
    Senator Carper. I would just add I think you were out of 
the room when I asked unanimous consent that Senator Heitkamp's 
name also be added as a co-sponsor to the manager's amendment, 
so she has joined the team as well.
    Senator Capito. Great. Thank you.
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    First, on the USE IT Act, let me say a very big thank you 
to you and to the Ranking Member for your leadership getting 
this moving. It has been a pleasure to work with the Chairman, 
Senator Capito, Senator Heitkamp, and Senator Duckworth on this 
piece of legislation.
    I want to thank the Audubon Society, The Nature 
Conservancy, the Clean Air Task Force, the Center for Climate 
and Energy Solutions, and many other groups for their support 
of this measure.
    I understand that there remain some concerns with the 
permitting section of the bill, but I come from a State that is 
now providing clean electrons to the grid from offshore wind, 
the first in the country, and the reason that we are doing that 
is because we made a more efficient permitting regime for 
offshore wind.
    I have been involved in other reforms that have involved 
regulatory efficiency, and I think it is really important that 
we be able to work together on those issues.
    To the extent that regulatory efficiency and regulatory 
improvement becomes a stand in for environmental degradation, 
please know that I and others will stand watch against that.
    The CCUS legislation that we enacted is going to be, I 
think, empowered by this. It is one thing to take the carbon 
dioxide out of the air at the plant; it is another thing to be 
able to get it to where it can find a beneficial use, whether 
it is to put bubbles into soda or to be used for industrial 
purposes or for whatever use, and there is not, as Senator 
Capito said, a very effective existing regime for how you send 
CO<INF>2</INF> pipelines places.
    In Rhode Island, we have a lot of algal technologies 
developing through groups like bioprocessH20 and Ag Corps, and 
obviously the use and development of algae, which feeds off of 
carbon dioxide, is one of the many uses that our CCUS bill will 
support. Brown University has a center for the capture and 
conversion of CO<INF>2</INF>, which I want to thank for their 
work in this area.
    And we don't really know yet, but this could be quite a big 
thing. The National Academies have estimated that direct air 
capture technology has the potential to remove a billion metric 
tonnes of CO<INF>2</INF> annually, and that could be a very 
important component of our efforts to address the climate 
crisis, so I thank all of the bipartisan participants in this 
effort.
    On the WRDA bill, a particular thank you again to Senators 
Barrasso, Carper, Inhofe, and Cardin for their work getting 
this bill together. There are a lot of my priorities that are 
in this bill, and I appreciate it very much.
    And I appreciate very much our Ranking Member's pledge to 
continue to work to try to balance the Flood and Coastal Storm 
Damage Reduction Fund, which at this point, despite referring 
to coastal storm damage right in its title, runs $37 to $1 for 
inland over coastal projects. I have raised that with Mr. 
James, and we are going to continue to work to try to get a 
little bit more balance there.
    A big and final thank you to Senator Boozman for his SRF 
WIN bill. I have raised the issue before of how WIFIA is simply 
not useful to Rhode Island because it operates at a scale, and 
with interest costs, it simply makes it non-competitive. And I 
think Senator Boozman's amendment, which would open up the 
WIFIA program to States like mine, is potentially a game 
changer for us and very important, so I want to particularly 
thank him for working to address this concern in a bipartisan 
way.
    And again, Mr. Chairman, thank you.
    Senator Barrasso. Well, thank you so much for all of your 
comments. Everyone here has had a chance and opportunity to 
speak on all of the pieces before us, so I ask unanimous 
consent that--before doing that, though, I will turn to Senator 
Carper.
    Senator Carper. Before Senator Whitehouse wraps up, I just 
want to thank him and applaud him and his staff, as well as the 
Chairman and his staff, Senator Capito. You all have done very 
good work, and we appreciate you working with us to I think 
make a good bill even better.
    Sheldon just said that this could be the start of something 
big, or words to that effect. I think he is right. We need 
something big, and to the extent that we can actually produce 
that, hallelujah. That would be great.
    Mr. Chairman, I have a statement for the record from 
Senator Duckworth. I would just ask unanimous consent that it 
be added, please.
    Senator Barrasso. Without objection.
    [The referenced information follows:]

                  Statement of Hon. Tammy Duckworth, 
                U.S. Senator from the State of Illinois

    The Utilizing Significant Emissions with Innovative 
Technologies Act is a significant step forward in the fight 
against climate change. This bipartisan bill recognizes the 
important role of carbon capture, utilization, and storage 
(CCUS) in reducing emissions. These emerging technologies will 
not only help combat climate change, but will enhance our 
economy, advance new industries, and create new American jobs.
    I would like to thank the authors of the USE IT Act for 
working diligently with me to include important language on 
permanent geologic storage. Carbon storage is the key to 
ensuring these emissions are safely kept in the ground to help 
limit the harmful impacts of climate change. Illinois is a 
leader in carbon storage research and infrastructure, and I am 
proud that my home State is helping us better understand how to 
deploy these technologies in an effective and safe manner.
    As I noted at the legislative hearing, the 
Intergovernmental Panel on Climate Change found that the cost 
of reducing carbon emissions will be at least 140 percent 
higher without CCUS. This important legislation promotes 
investment in low carbon technology infrastructure and research 
in emerging, innovative low carbon technologies. Our Nation 
must embrace every pathway to lowering emissions and bolstering 
our economy. This bill plays a critical role in achieving both 
these goals.

                  Statement of Hon. Tammy Duckworth, 
                U.S. Senator from the State of Illinois

    Mr. Chairman, I want to thank you, Ranking Member Carper, 
Subcommittee Chairman Inhofe, and Ranking Member Cardin for 
your leadership in advancing this important legislation. 
America's Water Infrastructure Act is an important and 
thoughtful effort to improve the effectiveness and efficiency 
of the U.S. Army Corps of Engineers, strengthen our Nation's 
water infrastructure, and advance dozens of projects nationwide 
that are critical to public health and safety.
    Included in this WRDA reauthorization legislation are key 
provisions that will empower communities to partner with the 
Corps of Engineers to advance regionally significant projects 
by requiring Corps districts to produce 5-year budgets and work 
plans with input and participation from local and regional 
stakeholders. The bill steers funding to Corps districts to 
create these work plans and prospective budgets, adding more 
transparency to Corps budgeting activities.
    Many communities in Illinois that have been frustrated by 
the Corps' antiquated ``Benefit-to-Cost Ratio'' will breathe a 
sigh of relief from provisions included in this legislation 
that require the Comptroller General to examine benefit-cost 
calculations and require the National Academy of Sciences to 
study the Corps' project planning process to determine if the 
Corps should move away from the existing project-based 
authorization process.
    I am also proud of the other provisions included in this 
legislation that will benefit Illinois by optimizing 
opportunities for managing wet weather events in ways that 
bolster a community's resiliency. One such provision integrates 
the Corps' work with local municipal stormwater management 
projects to help ensure broader water resource management goals 
are met. The bill also requires the Corps to review their 
procedures for addressing urban flood risk to allow more active 
Federal participation in urban flooding events and prioritizes 
the McCook Reservoir project to better protect 5 million 
Chicago-area residents from flooding in their homes and 
businesses.
    This WRDA legislation makes enormous strides in protecting 
one of Illinois' most precious resources, the Great Lakes, 
through a reauthorization of the Great Lakes Restoration 
Initiative with increased funding authorizations of $30 million 
in fiscal year 2019, $60 million in fiscal year 2020, and $90 
million in fiscal year 2021. The bill includes the Great Lakes 
Coastal Resiliency Study to facilitate meaningful coordination 
between various Federal and State agencies to produce 
recommended actions to manage and protect the Great Lakes 
coastline--an effort supported by all eight Great Lakes States. 
The bill also calls on the Corps to complete a final 
feasibility report for the Brandon Road Study by February 2019 
and makes it easier for existing local funding to be used in 
this important effort.
    As the Ranking Member of the Fisheries, Water, and Wildlife 
Subcommittee with jurisdiction over Federal drinking water and 
wastewater infrastructure programs, I am very pleased that the 
bill reinforces congressional commitment to the Clean and Safe 
Drinking Water State Revolving Funds by calling for robust 
funding of capitalization grants. I am also pleased that the 
Committee included a reauthorization of the Water 
Infrastructure Finance and Innovation Act (WIFIA) pilot program 
to help accelerate water infrastructure investment by providing 
long term, low cost supplemental loans for regionally and 
nationally significant projects. At the urging of Subcommittee 
Chairman Boozman, the bill also includes new innovative 
financing options for States and communities to consider a 
wider array of investment opportunities. Finally, I am 
heartened to see that Buy America protections for drinking 
water infrastructure projects were made permanent in the bill, 
which are critically important to our domestic steel industry.
    This bill is a significant and meaningful step forward for 
the thousands of communities that depend on modern ports and 
waterways, safe and reliable water infrastructure, or deal with 
pervasive flooding. This legislation sets the stage for 
modernizing our waterways so that American industries that rely 
on efficient, safe, and reliable transportation systems can 
remain competitive in the global marketplace, but more must be 
done to address our backlog of aging locks and dams by 
including additional innovative mechanisms to increase funding 
for these critical assets on the Mississippi and Illinois 
Rivers, among others.
    Mr. Chairman, Ranking Member Carper, I want to thank you 
again for your leadership on this important effort and your 
commitment to continue working with members of this Committee 
throughout the legislative process. I look forward to 
continuing our dialogue about how to enhance lead testing and 
monitoring of drinking water infrastructure at schools to 
protect public health and the safety of our children.
    Finally, I would like to thank the Committee staffs, both 
majority and minority, for their tireless work and dedication 
to this bipartisan effort. I strongly encourage my colleagues 
to support S. 2800, the bipartisan America's Water 
Infrastructure Act.

    Senator Carper. And Mr. Chairman, I also have several 
letters of support for the record for America's Water 
Infrastructure Act. These include the American Society for 
Civil Engineers, National Park Conservation Association, Great 
Lakes Commission, American Shore and Beach Preservation 
Association, National Association of Counties, Audubon, 
American Rivers, Nature Conservancy, U.S. Conference of Mayors, 
National League of Cities, and League of Conservation Voters.
    I would ask that those letters be submitted for the record.
    Senator Barrasso. Without objection.
    Senator Carper. Thank you very much.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. And I have a similar long list of letters 
for the record, and I would be happy to submit them, without 
objection, and that will be done.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Barrasso. I just want to thank all of the members, 
and a special thanks to the staff, who have worked extremely 
hard to make sure that we could find common ground, and we have 
done a wonderful job in doing that, to address the needs of 
this Nation, so I ask unanimous consent that the staff have the 
authority to make technical and conforming changes to each of 
the matters approved today.
    With that, our business meeting is concluded.
    [Whereupon, at 10:45 a.m. the Committee was adjourned.]
    [Additional material submitted for the record follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
                                 <all>
</pre></body></html>
